        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The National Nuclear Security
Administration's Management of the
Product Realization Integrated
Digital Enterprise Program




DOE/IG-0836                           July 2010
                                 Department of Energy
                                   Washington, DC 20585

                                         July 22, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The National Nuclear Security
                         Administration's Management of the Product Realization Integrated
                         Digital Enterprise Program"

BACKGROUND

The National Nuclear Security Administration (NNSA), in partnership with the Department of
Defense, maintains the Nation's arsenal of nuclear weapons through a geographically dispersed
Nuclear Weapons Complex (Complex). In support of this mission, NNSA relies upon numerous
and disparate site-specific and cross-Complex information systems to help manage the nuclear
weapon product life-cycle process. NNSA, in its own planning documents, has noted that since
Fiscal Year (FY) 2000, it had devoted considerable resources to these systems, acknowledging
that their operation and management costs were not always well defined nor completely
understood.

To respond effectively to changing requirements, and, share and exchange weapon product
information among sites, NNSA established its Product Realization Integrated Digital Enterprise
(PRIDE) Program in FY 2007. PRIDE was established to develop and deploy a modernized,
integrated suite of enhanced information technology (IT) capabilities to securely deliver weapon
product life-cycle information to users across sites. NNSA anticipated that PRIDE would result
in a reduction in weapon development cycle times and associated expenses. By the second year
of the program, PRIDE consisted of over 100 sub-projects. NNSA originally planned to
complete development activities within the PRIDE program by the end of FY 2014 at a projected
total cost of approximately $83 million. Given the importance and significant cost of the PRIDE
initiative, we conducted this audit to determine whether development had been managed in a
manner that would permit the system to achieve its intended goals and objectives.

RESULTS OF AUDIT

Our audit revealed that PRIDE had not been well-planned and adequately managed as an IT
investment. In particular, program officials had not always applied sound capital planning and
investment control practices as required for an effort of this magnitude and complexity.
Symptomatic of these weaknesses, two years into the initiative the original schedule had slipped
by at least a year and overall developmental costs were expected to exceed original projections
by about $16 million, or nearly 20 percent of the base estimate. Specifically, we found that
program officials:
                                                 2


       Did not implement the Department's structured capital planning and investment control
       process for planning, selecting, funding, controlling and evaluating information
       technology investments; and,

       Had not applied effective oversight controls that would enable responsible Federal
       managers to monitor the program's progress against baseline costs and schedule,
       performance and expected benefits.

These weaknesses occurred primarily due to inadequate management guidance and direction, and
ineffective program monitoring. PRIDE's primary goal was to develop and deploy an integrated
suite of enhanced IT capabilities in support of the transformation and modernization of the
Complex. Instead of managing PRIDE as an IT investment or capital asset to ensure that its
overall goals were achieved, program officials elected to treat each of the individual sub-projects
as separate and independent efforts. Thus, multiple sub-projects with a common focus and
design were not grouped together for ease of project management; and, subordinate program
officials and project managers were not directed to follow the project management and IT capital
asset planning principles as required by both OMB and the Department of Energy.

Widespread concerns have been expressed that many government IT projects cost hundreds of
millions of dollars more than planned, take years longer than necessary to deploy, fail to produce
expected benefits and that they deliver technologies that are obsolete by the time they are
completed because of poor management. To address these problems, OMB issued Memorandum
10-25, Reforming the Federal Government’s Efforts to Manage Information Technology
Projects, which included plans to develop higher standards for project management practices and
personnel, additional mechanisms for holding managers accountable for project results and more
rigorous review processes. Additionally, OMB Memorandum 10-27, Information Technology
Investment Baseline Management Policy, which, among other things, provided direction on
establishing IT investment baseline management, measuring performance, identifying
accountability, describing the implementation approach and interdependencies, identifying key
decisions and embedding quality assurance and reviews.

We could not definitively determine the impact over time of the challenges facing the PRIDE
effort. This was primarily due to the limited availability of scheduling and project cost data.
However, it became clear that even in just the first two years of the program, PRIDE's
development activities had already been extended an additional year, to FY 2015, and that
development costs are expected to increase by about $16 million. As currently managed, there is
a significant risk of further delays and cost increases. Delays completing PRIDE and in
deploying these IT resources directly impacts NNSA's ability to accomplish the Complex
transformation vision. In our view, these risks can be effectively managed if NNSA applies
sound IT capital asset planning and robust front-end baseline, schedule, and performance
planning.

Accordingly, we have made recommendations, which if fully implemented, should: (i) help
increase the likelihood of accomplishing and sustaining PRIDE's long-term goals, as well as
supporting other NNSA initiatives relying on this effort; (ii) assist the Department in its general
efforts to improve contract and project administration; and, (iii) advance the President's
                                               3


commitment to promote transparency and accountability by fully disclosing Federal IT spending.
Our review was limited to an assessment of the program’s management controls, and would not
necessarily have identified issues related to the technical aspects of the Program's activities.

MANAGEMENT REACTION

NNSA management generally concurred with our recommendations and stated its intention to
initiate corrective actions to address the recommendations. These actions, if fully implemented,
should increase the likelihood of accomplishing and sustaining the long-term goals of PRIDE on
schedule and within budget. However, in an extensive set of comments, management took
exception to the audit conclusions in a number of areas. Management's comments and our
rebuttal are important elements of this audit and should be carefully considered. They are more
fully discussed in the body of this report and are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Information Officer
    Chief Information Officer, NNSA
REPORT ON THE NATIONAL NUCLEAR SECURITY
ADMINISTRATION'S MANAGEMENT OF THE PRODUCT
REALIZATION INTEGRATED DIGITAL ENTERPRISE PROGRAM

TABLE OF
CONTENTS

Planning and Management of the Product Realization Integrated Digital Enterprise

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................7


Appendices

1.    Objective, Scope, and Methodology ..........................................................................15

2.    Related Reports ..........................................................................................................17

3.    Management Comments .............................................................................................19
The National Nuclear Security Administration's Management of the
Product Realization Integrated Digital Enterprise Program

Information Technology Although the Product Realization Integrated Digital Enterprise
Investment             (PRIDE) Program made positive strides in its first two years,
                       the effort had not been planned and executed as an information
                       technology (IT) investment to help ensure it achieved its
                       intended goals and objectives in a cost effective and timely
                       manner. Specifically, we found issues with the application of
                       capital planning practices, baseline management controls, and
                       oversight of the program and its portfolio of projects.

                                         System Development Background

                           PRIDE, which is primarily an IT program in support of the
                           National Nuclear Security Administration's (NNSA) enterprise-
                           wide integration, uses technology as the key element to
                           achieving program goals and objectives. To its credit, NNSA
                           recognized the increased need to expedite responsiveness, and
                           share and exchange weapon product life-cycle information
                           across the Nuclear Weapons Complex (Complex or NWC).
                           NNSA officials realized that no information system existed that
                           could support weapon systems data intricacies and needed
                           integration capabilities. Accordingly, it had taken steps to
                           develop and deploy an integrated solution that securely delivers
                           data and enhanced capabilities to users by consolidating and
                           modernizing site-based weapon product applications/systems.
                           It is envisioned that PRIDE will develop enhanced IT
                           capabilities and assume support for existing information
                           systems as part of its scope, ultimately resulting in reduced
                           time and costs for managing the weapon product life-cycle.

                           In Fiscal Year (FY) 2007, the NNSA Nuclear Weapons
                           Stockpile Division established funding and appointed a
                           program management team to manage and oversee the PRIDE
                           portfolio to integrate systems for managing the weapon product
                           life-cycle. An extensive set of high level project management
                           documentation was prepared to guide the development effort.
                           During initial planning, over 120 applications/systems were
                           identified for characterization and potential consolidation. As
                           approved in FY 2008, development activities within the PRIDE
                           program would establish a fully integrated and interdependent
                           "system of systems" by the end of FY 2014 at a cost of
                           approximately $83 million.

                                      Capital Planning and Investment Control

                           Although PRIDE was in its third year of development, NNSA
                           lacked a structured process to plan, select, fund, control and
________________________________________________________________
Page 1                                                Details of Finding
                       evaluate the PRIDE IT investment or its portfolio of projects.
                       Although PRIDE program officials had developed extensive
                       documentation to guide the development efforts, they had not
                       fully incorporated capital planning requirements into the initial
                       planning or definition efforts of PRIDE. PRIDE's development
                       activities were aggregately funded at $15 million in FY 2009
                       and were projected to total $115 million from FYs 2008-2015.
                       We identified at least five enterprise-wide sub-projects that
                       ranged in cost from $5 million to $20 million over the
                       program's life. However, a Capital Asset Plan had not been
                       prepared for the PRIDE investment and only 5 of 110 projects,
                       accounting for less than $4 million of the $32 million FY 2011
                       investment costs, could be clearly identified in the Department
                       of Energy's (Department) IT Investment Portfolio – part of its
                       annual budget submission.

                       Both the Office of Management and Budget (OMB) and the
                       Department require a Capital Asset Plan and Business Case
                       (Exhibit 300) be prepared for all major IT investments. In
                       addition, both major and non-major IT investments must be
                       reported in the Department's IT Portfolio (Exhibit 53). The
                       Federal Chief Information Officers Council and OMB clarified
                       that IT investments can be made up of one or more IT projects
                       and consist of efforts that typically require more rigor and
                       structure to maximize their value. OMB and the Department
                       have defined major IT investments, including large
                       infrastructure investments, as those that meet any of the
                       following factors, each of which are applicable to PRIDE:

                              Total IT project costs of $5 million or more;

                              Any IT investment with cumulative steady state or
                              mixed life-cycle funding of $5 million or more during
                              the prior, current, and budget year;

                              Any IT investment requiring special management
                              attention because of its importance to the agency
                              mission;

                              Any IT project with high development, operating, or
                              maintenance costs; high risk; or high return; and,

                              Any IT investment that plays a significant role in the
                              administration of agency programs, finances, property,
                              or other resources.


________________________________________________________________
Page 2                                                Details of Finding
                       Effective capital planning requires robust front-end and long-
                       range planning and a disciplined budget decision-making
                       process as the basis to achieve performance goals and
                       objectives with minimal risk, lowest life-cycle costs, and
                       greatest benefit. Through preparation of the Exhibit 300, the
                       OMB requires agencies to fully address such issues as
                       investment business case, performance baselines, costs and
                       schedule variances, IT security reporting, agency
                       modernization efforts, overall project (investment)
                       management, and compliance with Federal statutes such as the
                       Clinger Cohen Act of 1996. Furthermore, the Exhibit 300
                       provides critical information to OMB on major IT investments
                       for reporting to Congress and helps ensure the business case for
                       IT investments are aligned to the Department's mission, long-
                       term strategic goals and objectives, and annual performance
                       plans.

                                              Program Controls

                       In addition to financial and budgetary controls, PRIDE officials
                       did not incorporate required oversight controls and best
                       practices such as cost and schedule baselines into the
                       management structure of the program to ensure that projected
                       costs, benefits, and performance were properly documented
                       and tracked. Officials were unable to provide us with detailed
                       project-level baseline information, since it had not been
                       captured, tracked, or reported at either the program or sub-
                       project levels. In addition, while certain sites submitted status
                       reports about their respective projects, the reports did not
                       contain crucial information necessary to monitor progress and
                       performance. Specifically, NNSA received quarterly reports
                       and held quarterly program reviews which served to provide
                       updates on various PRIDE project costs, risks,
                       accomplishments, and milestones, as well as evaluate priorities.
                       However, reports were not received for all of the ongoing
                       projects and the data did not provide a means to identify
                       potential increases in costs or impacts to schedule or scope
                       because the original baseline data was not retained. Since
                       comprehensive information was not collected or tracked, senior
                       management was not provided with all necessary information
                       that would have enabled it to make informed decisions
                       regarding progress/investment viability.

                       Officials also did not require a formal performance baseline or
                       cost/benefit analysis be developed and maintained with any
                       degree of certainty. For instance, in comparing available

________________________________________________________________
Page 3                                                Details of Finding
                       information on PRIDE's initial FY 2008-2014 program data to
                       revised FY 2009-2015 data, estimated amounts for
                       development activities varied from 13-44 percent annually.
                       The Department requires that all project baseline changes in
                       excess of the lesser of $25 million or 25 percent of the original
                       baseline, or project delays of six months or greater from the
                       original completion date, must receive executive approval.
                       However, PRIDE officials were unable to provide us with
                       documented or approved justifications for the large variances
                       from the initial estimates. Furthermore, although we obtained
                       quarterly status reports, annual implementation plans, and
                       funding documents, we were unable to reconcile them to a
                       complete listing of individual projects or subtasks. Therefore,
                       we were unable to rely on individual funding amounts or to
                       draw conclusive results about PRIDE's performance.

                       In addition, we noted that officials split single projects that
                       occurred at multiple sites into multiple projects, thus funding
                       and managing the same project at each site individually. For
                       example, we identified 68 individually-funded development
                       projects in PRIDE's 2009 work breakdown structure.
                       However, 31 of these projects, ranging in cost from $5 million
                       to $20 million, actually consisted of 5 key projects that were
                       broken down among multiple sites, including:

                              A system for digital design and modeling of weapon
                              products,

                              An application to standardize product structure,

                              A system to establish change management and
                              document control of product data throughout the life-
                              cycle,

                              A database containing high-value, at-risk historical
                              product data, and,

                              A system that performs analyses needed for annual
                              stockpile performance assessment.

                       This practice overstated the number of active projects and
                       understated their costs, thereby placing them below the
                       threshold that required officials to apply capital planning
                       requirements or implement pertinent baseline management
                       controls to effectively monitor the program's progress against
                       projected costs, schedule, performance, and expected benefits.

________________________________________________________________
Page 4                                                Details of Finding
Management             NNSA did not apply strong IT capital planning and investment
Practices              controls over the PRIDE Program due to inadequate
                       management guidance and direction. In addition, the PRIDE
                       Program lacked effective management oversight to ensure that
                       effective controls, such as cost and schedule baselines, were in
                       place for properly documenting and tracking program costs,
                       benefits and performance.

                                           Guidance and Direction

                       NNSA management did not ensure that PRIDE followed
                       Federally-mandated project management directives and IT
                       capital planning requirements and best practices. Instead of
                       managing PRIDE as an investment or capital asset for
                       developing an integrated suite of enhanced IT capabilities,
                       officials elected to treat each sub-project within the investment
                       as a distinct and isolated effort. Program officials did not
                       require an overall project execution plan in order to properly
                       identify, document and manage the entire program's expected
                       costs and schedule, but instead relied on numerous project
                       implementation plans within the portfolio. This approach
                       obscured the overall progress of PRIDE, which is vital
                       information for executive management and for NNSA
                       initiatives affected by or relying on this program.

                       The NNSA Office of the Chief Information Officer and PRIDE
                       officials stated that they believed that only projects, not
                       programs, per se, were required to adhere to capital planning
                       and/or project management requirements. Furthermore, they
                       believed the individual projects were not subject to the
                       requirements, since none of the 110 sub-projects individually
                       met the $5 million and $20 million thresholds for capital
                       planning and project management, respectively. However, we
                       noted that both the Federal Chief Information Officers Council
                       and OMB clarified that an IT investment can be made up of
                       one or more IT projects. PRIDE, while comprised of numerous
                       sub-projects, has a unified goal of consolidating, integrating
                       and enhancing numerous disparate systems/applications to
                       create an integrated suite of enhanced systems for managing
                       the weapon product life-cycle and, therefore, should have been
                       managed as such. Furthermore, the PRIDE portfolio of
                       projects was budgeted at $115 million in development costs
                       alone, well over the threshold for a major IT investment, thus
                       requiring more rigor and structure to properly manage the
                       program and maximize its value.



________________________________________________________________
Page 5                                                Details of Finding
                                           Monitoring and Control

                       In addition, NNSA management did not provide effective,
                       comprehensive monitoring and control of the cost and schedule
                       aspects of the PRIDE Program. Oversight and decision making
                       responsibility was delegated to a program management team
                       comprised of contractor representatives from various NNSA
                       sites. As such, this team lacked authority to provide direction
                       and to review the work performed by other sites to ensure that
                       the overall IT investment and its sub-projects' baselines and
                       schedules were adequately managed and achieving the
                       program's cost and performance goals. A management official
                       in NNSA Headquarters acknowledged that those selecting
                       suitable projects and overseeing PRIDE's progress did not have
                       the authority to direct other participants. Instead, the 110 sub-
                       projects active during FY 2009 were being managed and
                       executed independently among 8 sites across the Complex.
                       Consequently, there was inadequate verification of cost and
                       performance reporting by the PRIDE Program Office and
                       individual lead sites. We noted that, due to the lack of
                       authority, none of the managers for the sub-projects we
                       reviewed had verified costs submitted by other sites, making it
                       difficult to ensure that the various sub-projects that comprise
                       PRIDE were actually achieving their cost and performance
                       objectives.

Opportunities for      As a result of inadequate management guidance and direction
Improvement            for applying strong IT capital planning and investment
                       controls, within just the first two years of the initiative, the
                       completion date of PRIDE's development efforts had been
                       extended an additional year to FY 2015, with a projected cost
                       increase of about $16 million. Without improvement in
                       program management direction to address the weaknesses we
                       observed, PRIDE is at risk of further delays, increased costs
                       and lost operating efficiencies and may not fully satisfy its
                       intended goals and objectives. Delays in deploying these
                       resources directly impact NNSA's ability to accomplish the
                       complex transformation vision.

                       Furthermore, the lack of a rigorous capital planning and
                       investment control process and the inability to effectively
                       monitor and verify project costs deprived OMB and
                       Department executives, as well as other key stakeholders, the
                       opportunity to evaluate PRIDE's performance and make




________________________________________________________________
Page 6                                                Details of Finding
                     informed decisions based on any cost and schedule variances.
                     Implementing a comprehensive process helps ensure that the
                     investments are included in the agency's IT portfolio, the
                     budget is justified, and management support is garnered. In an
                     era of ever tighter funding constraints, PRIDE's success
                     depends largely upon sustaining adequate funding levels and
                     maintaining senior management's commitment.

RECOMMENDATIONS      To help ensure PRIDE is effectively managed and that
                     stakeholders can maintain cognizance over the program, we
                     recommend that the Administrator, NNSA, direct the NNSA
                     Chief Information Officer and PRIDE officials to:

                        1. Prepare and submit required IT capital plans for
                           funding, controlling and evaluating the PRIDE
                           investment, to include preparation of a business case
                           and fully capturing the costs of PRIDE in the
                           Department's IT investment portfolio; and,

                        2. Implement effective baseline and schedule management
                           controls over PRIDE through comprehensive oversight
                           of the program and its portfolio of projects to satisfy
                           Federal and Departmental requirements, to include:

                                    Establishing and maintaining accurate project
                                    baselines;

                                    Identifying, documenting and verifying
                                    estimated and actual project costs and
                                    performance; and,

                                    Ensuring that Federal managers of multi-site
                                    projects have the necessary authority to direct
                                    and oversee work performed at other sites.

MANAGEMENT AND       Although NNSA generally agreed with the report and
AUDITOR COMMENTS     concurred with the recommendations, management expressed
                     concern with our portrayal of the PRIDE Program and
                     questioned the accuracy of certain portions of the report.
                     Management stated its intention to initiate corrective actions to
                     address the recommendations, which if fully implemented,
                     should increase the likelihood of accomplishing and sustaining
                     the long-term goals of PRIDE on schedule and within budget.
                     We have summarized management's comments and provided
                     individual responses for each comment.


________________________________________________________________
Page 7                                  Recommendations and Comments
                                            Investment Status

                     Management commented that it had applied a consistent and
                     documented set of controls over the PRIDE Program's
                     life-cycle, but did not follow the Capital Planning and
                     Investment Control (CPIC) process. It explained this was
                     because the program is neither an IT capital acquisition nor is it
                     delivering an integrated single solution, but is instead a series
                     of projects operating under program guidance for the NNSA
                     Defense Programs.

                     While we do not refer to PRIDE in the report as an IT capital
                     acquisition, the program does meet the criteria of an IT
                     investment and capital asset as set forth by OMB. Specifically,
                     the Federal Chief Information Officers Council and OMB
                     clarified that an IT investment can be made up of one or more
                     IT projects and accordingly requires more rigor and structure to
                     maximize its value. In addition to acquisition principles, the
                     CPIC process also includes the planning and budgeting,
                     management and disposition of capital assets to ensure that
                     these investments successfully contribute to achieving the
                     Department's strategic goals and objectives. According to
                     OMB Circular A-11, Part 7, capital assets include, among other
                     things, IT hardware and software as well as weapon systems that
                     are used by or on behalf of the Federal government. Capital
                     assets include not only the assets as initially acquired but also
                     additions, improvements, modifications, replacements and
                     rearrangements and reinstallations. Finally, as noted in our
                     report, major IT investment/acquisitions are capital assets that
                     require special management attention because of their
                     importance to the agency mission; high development,
                     operating, or maintenance costs; high risk; high return; or, their
                     significant role in the administration of agency programs,
                     finances, property or other resources. We determined that
                     PRIDE satisfied a number of these factors, and, therefore,
                     should have adhered to the CPIC process and should have been
                     separately identified in the Department's budget.

                                         Information Technology

                     Management stated that the PRIDE Program established and
                     managed an integrated digital environment of optimized
                     electronic information management systems (EIMS) that
                     securely delivered weapons design and production information
                     to all site-based users across the Nuclear Security Enterprise
                     (NSE). In addition, 80 percent of PRIDE funding was directed

________________________________________________________________
Page 8                                                     Comments
                     to mission operations and maintenance while other funding
                     elements were directed to "architecting" activities that would
                     intentionally not result in an IT solution being delivered. As
                     such, management stated that PRIDE is not developing an IT
                     system and is not an IT system. Thus, PRIDE is neither a
                     capital asset, per se, nor a development program. Further,
                     management stated its belief that the Office of Inspector
                     General (OIG) may have misunderstood the term "development
                     cost" as it relates to PRIDE. Management also noted that
                     PRIDE is a capabilities improvement program driven by
                     mission business requirements including the need for digital
                     models-based capabilities. According to management, the
                     PRIDE integrated and interdependent "system of systems"
                     represents the NNSA vision of a future Integrated Digital
                     Enterprise that has no end. NNSA management believed all
                     references to IT in this report should be replaced with "product
                     realization."

                     Although we performed an extensive review of documentation
                     provided by the PRIDE Federal Program Manager, we were
                     unable to substantiate that 80 percent of the PRIDE Program
                     was allocated to operations and maintenance (O&M) activities,
                     with the remaining funds directed to program management.
                     Rather, we found, after the first year, the majority of funding
                     was directly related to activities such as "develop & deploy
                     electronic information management systems" or "consolidate,
                     transform, and enhance." According to the information
                     provided for FYs 2008, 2009 and 2010, the amounts allocated
                     to O&M decreased and were 50 percent, 40 percent and 43
                     percent, respectively. Conversely, the amounts allocated
                     during the same time to development increased and represented
                     37 percent, 49 percent and 46 percent of total funding,
                     respectively. With such large allocations devoted to the
                     development, consolidation, transformation and/or
                     enhancement of EIMS, we continue to believe that PRIDE
                     should be diligently planned, programmed and managed as an
                     IT investment/capital asset.

                     In addition, we disagree with management's comment
                     regarding our categorization of PRIDE as a system. PRIDE
                     was not portrayed as a single system under development in the
                     report. Rather we acknowledged that it is a program comprised
                     of a portfolio of interdependent projects, the result of which is
                     to develop and deploy a suite of integrated systems across the
                     NWC. While we agree with management's description of the
                     PRIDE Program, we disagree that all references to IT within

________________________________________________________________
Page 9                                                     Comments
                     the report should be replaced. Specifically, we noted that the
                     Program Plan stated that PRIDE "enables the creation of a fully
                     integrated and interdependent NWC by providing enterprise
                     information systems…" We feel that the terms "electronic
                     information management system(s)" and "enterprise
                     information systems" are analogous to "information
                     technology." We also noted that the PRIDE Governance
                     Manual stated that "the PRIDE Program is primarily an IT
                     program in support of Complex-wide core mission integration.
                     As such, technology is the key element of the program. The
                     program will be both developing new technology approaches
                     and assuming support for existing implementations as part of
                     its scope." In fact, we found that within only two of the six
                     PRIDE core management documents (Volume I – Program
                     Plan and Volume IV – Governance Manual), the terms
                     "information technology" or "IT" were used 30 and 25 times,
                     respectively.

                     To clarify our position that the management weaknesses we
                     identified pertained to NNSA's failure to manage PRIDE as an
                     IT investment, we modified the report where appropriate.

                                             Program Costs

                     Management refuted the determination made in the report that
                     the program is over budget and schedule, indicating a lack of
                     control. Management explained that PRIDE's first year
                     program plan was based on NNSA's Programming, Planning,
                     Budgeting and Evaluation (PPBE) process which required a
                     multi-year time horizon for planning and budgeting for all
                     activities. This plan is then updated annually to reflect
                     program performance and enacted appropriations. According
                     to management, the PRIDE Program Management Team
                     planned and budgeted over 100 projects and then updated and
                     realigned PRIDE applications at the beginning of each fiscal
                     year. In addition, PRIDE is not a subprogram or budget
                     structure element in the budget, it is not discrete in the
                     accounting system, nor is it an operating-expense funded
                     project with a datasheet. PRIDE is an activity like many others
                     conducted at a number of sites that is within the $2 billion
                     DSW activities. It has plans and milestones and budget
                     estimates within this subprogram, although it does not have a
                     discrete funding request or published baseline as a line item
                     project would have.




________________________________________________________________
Page 10                                                    Comments
                     We noted that the PPBE process, as referenced by
                     management, was consistent with capital programming
                     investment controls to include a valid and structured life-cycle
                     management approach derived from credible baselines that
                     consider past events, present resources, and future needs.
                     However, regardless of the interpretation of NNSA's internal
                     policy, OMB dictated the development of a sound performance
                     baseline for assessing program/project/investment progress
                     and/or deviations. The development of a "multi-year time
                     horizon" does not negate the need and requirement for
                     determining an initial performance baseline to define
                     objectives, formalize commitments, establish funding,
                     authorize changes and communicate progress for a program of
                     this magnitude. We agree that annual updates to project
                     baselines are permissible with sufficient justification and
                     adequate approval. However, when requested during the audit,
                     management was unable to provide documented justifications
                     for the wide variances identified from year to year in major
                     areas (such as O&M and development activities) and/or from
                     project to project that were obtained from the program
                     documentation. While we agree that PRIDE had plans and
                     milestones and budget estimates, we found that these were not
                     clear, concise, meaningful, and measurable performance
                     baselines that could be used to conduct credible reviews
                     through which results could be compared against these
                     baselines. As currently planned and programmed, PRIDE does
                     not maintain an initial starting point (baseline) from which to
                     measure program performance.

                     Management's comment refutes that there is a defined cost
                     estimate or schedule for completion. While not all inclusive,
                     we consider similar terms (e.g. development, modernization,
                     enhancement, consolidation, transform, additions,
                     improvements, modifications, replacements, rearrangements
                     and reinstallations) to indicate development-type activities that
                     are undertaken to achieve a fully realized and operational
                     integrated digital enterprise; the development of which will
                     eventually cease and enter an operations and maintenance
                     phase. According to the initial program plan, the goal was to
                     establish a Complex-wide digital Product Lifecycle
                     Management System by the end of FY 2014. However, in later
                     versions (FYs 2009 and 2010) the completion date was noted
                     as being by the end of FY 2015. As a result, we concluded that
                     the program's development activities had increased in cost and
                     had been extended by one year, as noted in our report. To



________________________________________________________________
Page 11                                                    Comments
                     distinguish between development costs rather than overall
                     program expenditures, we modified the report where
                     appropriate.

                     Regarding management's comment that PRIDE is an activity
                     like many others conducted at a number of sites, we consider a
                     major distinction between PRIDE and other activities to be the
                     level of complexity involved in the consolidation and
                     modernization of numerous and disparate site-based weapon
                     product data systems into an Enterprise-wide integrated
                     solution. We further noted that management refers to PRIDE
                     as both a 'program' and 'activity' throughout its comments.
                     Therefore, we concluded that these terms were being used
                     interchangeably and that the choice of one over another should
                     not downplay the actual size or overall complexity of the
                     program as a whole.

                                          Program Management

                     Management noted that the PRIDE Federal Program Manager
                     (FPM) and the Program Management Team (PMT)
                     continuously directed and managed the PRIDE portfolio of
                     investments using predetermined and agreed-upon investment
                     management strategies, practices, principles and governance
                     which were reflected in an extensive set of core management
                     documentation and processes. These documents are updated
                     regularly and form the core of the documentation of PRIDE's
                     management processes and budgetary oversight at the program
                     level, including a baseline ("as is" state) for all projects
                     (PRIDE applications) that are improvement activities. While
                     these documents were provided to the auditors, they are not
                     referenced in the draft report, which states that the project "had
                     not applied effective oversight controls."

                     In addition, management stated that detailed program reviews
                     are held quarterly and site-based performance evidence
                     documentation is extensive and its contents exhaustive. Since
                     the program's inception, all PRIDE final decisions reside with
                     the FPM. The PRIDE PMT comprised of contractor
                     representatives from various NNSA sites, makes
                     recommendations and presents options for NNSA approval.
                     PRIDE has followed NNSA DSW requirements for program
                     management, as directed by the FPM. The PMT has quarterly
                     reporting for all projects and access to detailed site-based
                     reporting. NNSA has had and currently has available, all
                     PRIDE reports, site-based evidence documentation, project

________________________________________________________________
Page 12                                                    Comments
                     plans, project baselines and other artifacts. The Inspector
                     General committed to meet with the NNSA FPM prior to the
                     release of the draft report, but unfortunately this meeting did
                     not occur.

                     While we agree that the FPM and contractor-led PMT work
                     closely together, we found that clear, concise, meaningful and
                     measurable performance baselines which could be used to
                     conduct credible program- or project-level reviews were never
                     established. When the audit team requested this type of
                     information, we were told that the cost, schedule and technical
                     scope had been documented for strategic purposes only – not to
                     measure the program's progress. Additionally, we were told
                     that there was no principal source from which to pull a
                     comprehensive inventory of the portfolio of projects. In
                     addition, as previously discussed, we noted that funding levels
                     and projects changed over time without documented
                     justifications and/or approvals from which to base a valid
                     rationale for the reprogramming of resources. Due to the
                     complexity of the PRIDE program and the number of
                     contractor-led sites involved, we would expect to see a Federal
                     management structure that closely monitored the progress of
                     the program's strategic goals and objectives.

                     We acknowledge that the follow up meeting mentioned by
                     management did not occur. However, this was because the
                     audit team (consisting of the Auditor-in-Charge, Team Leader,
                     Division Director, and Deputy Inspector General for Audit
                     Services) had met with PRIDE program officials previously to
                     discuss various aspects of the program; including its
                     classification and the need for Federal oversight, and were
                     under the impression that a general consensus had been
                     reached. In addition, prior to this, the Auditor-in-Charge,
                     Team Leader, and Division Director had met with PRIDE
                     officials extensively to discuss the same topics.

                     During these meetings, the FPM explained that the program
                     was operated under the Government-Owned, Contractor-
                     Operated model and that the contractors were paid to perform
                     and manage their work. The FPM further stated that the
                     contractors did not warrant a high degree of oversight. We feel
                     that the importance of program oversight was highlighted when
                     officials were unable to account for the amounts spent to date
                     or reprogrammed from one activity to another within and
                     among contractor-operated sites. In fact, officials stated that
                     the $30 million plus annual budget needed to run the program

________________________________________________________________
Page 13                                                    Comments
                     was a strategic number rather than a realistic budget. Officials
                     further stated that the audit team could not rely on the work-
                     breakdown-structure as it was strictly strategic in nature as
                     opposed to a tool used to manage the program or its portfolio
                     of interrelated projects. We were referred to the core
                     documents for specifics, particularly the Program Plan and
                     Governance Manual, which we used extensively in arriving at
                     the conclusions reached within the report.

                     Upon review of three years worth of the core management
                     documentation and processes (a six volume set), we integrated
                     a significant amount of this information throughout the
                     preliminary and draft reports. However, as noted above, much
                     of the information we derived from these documents, such as
                     the intensity of Federal oversight, initial cost and schedule
                     baseline, whether the program included IT, or was involved in
                     information system development activities, has since been
                     refuted or contradicted by the program team.

                     To acknowledge the project documentation that NNSA
                     developed and to clarify our position, we modified the report
                     where appropriate. Finally, NNSA provided a number of
                     technical comments, which were incorporated into the report
                     where applicable.




________________________________________________________________
Page 14                                                    Comments
Appendix 1

OBJECTIVE              To determine if the National Nuclear Security Administration's
                       (NNSA) Product Realization Integrated Digital Enterprise
                       (PRIDE) Program was adequately managed in a manner to
                       achieve its intended goals and objectives.

SCOPE                  The audit was performed between September 2008 and March
                       2010 at Department of Energy (Department) and NNSA
                       Headquarters, Washington, DC; Sandia and Los Alamos
                       National Laboratories, New Mexico; and, the Y-12 National
                       Security Complex in Tennessee.

METHODOLOGY            To accomplish our objective, we:

                                Reviewed Federal and Department directives
                                pertaining to program and project management, and
                                information technology (IT) capital planning and
                                investment control activities;

                                Reviewed applicable standards and guidance issued
                                by the Office of Management and Budget (OMB) for
                                the management of major IT investments, such as
                                OMB Memorandum 10-25, Reforming the Federal
                                Government’s Efforts to Manage Information
                                Technology Projects, and OMB Memorandum 10-27,
                                Information Technology Investment Baseline
                                Management Policy;

                                Obtained and analyzed documentation from NNSA
                                pertaining to the planning, design and implementation
                                of PRIDE and its portfolio of projects, such as
                                Volume 1 – PRIDE Program Plan, Volume 2 –
                                PRIDE Budget, Volume 3 – PRIDE Information
                                Systems Catalog, Volume 4 – PRIDE Governance
                                Manual, Volume 5 – PRIDE Project Scoping
                                Documents, and Volume 6 – PRIDE Business
                                Implementation Strategy for Fiscal Years 2008-2010;

                                Held discussions with officials from the Department
                                and NNSA; and,

                                Reviewed prior reports by the Office of Inspector
                                General and the Government Accountability Office.

                       We conducted this performance audit in accordance with
                       generally accepted government auditing standards. Those


________________________________________________________________
Page 15                                Objective, Scope, and Methodology
Appendix 1 (continued)

                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe that the evidence obtained provides a reasonable
                       basis for our findings and conclusions based on our audit
                       objectives. Accordingly, we assessed significant internal
                       controls and NNSA's implementation of the Government
                       Performance and Results Act of 1993 and determined that it
                       had established performance measures for information
                       technology program and project management. Because our
                       evaluation was limited, it would not have necessarily disclosed
                       all internal control deficiencies that may have existed at the
                       time of our evaluation. We did not rely on computer-processed
                       data to satisfy our objectives.

                       Management waived an exit conference.




________________________________________________________________
Page 16                                Objective, Scope, and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General Reports

   The Management of the National Nuclear Security Administration's Classified Enterprise
   Secure Network Project (DOE/IG-0823, September 2009). The audit team found that
   neither the planning for nor execution of the Enterprise Secure Network (ESN) project
   had been effective; thus leading to a system which was not completed on time, within
   budget or scope. ESN was not operational until three-years after its planned completion
   date, incurred a cost overrun of $37 million, and did not provide sufficient capacity for
   certain supercomputer and other classified systems' traffic as planned. These issues were
   attributable, in large part, to problems with planning and management of the ESN effort,
   including a lack of project management controls and protections required for efforts
   anticipated to cost more than $20 million. This deprived senior National Nuclear
   Security Administration (NNSA) management officials of crucial information necessary
   to ensure that the initiative was properly planned and executed, and that project costs
   were properly tracked. Because of the project delays, certain interdependent NNSA
   initiatives, including ongoing efforts to standardize and consolidate weapons data and
   enforce need-to-know access across the Nuclear Weapons Complex, had been adversely
   impacted.

   Management Challenges at the Department of Energy (DOE/IG-0808, December 2008).
   Based on results from prior and current reviews, emerging issues, and actions taken by
   the Department of Energy (Department), the Office of Inspector General (OIG) identified
   contract administration including project management, cyber security, safeguards and
   security, and stockpile stewardship as four of the six most significant challenges facing
   management. While contract management remains on the list, credit is given to the
   Department for steps taken to mitigate impediments to complete projects on cost and
   schedule. Cyber security, a component of the Department's overall security posture, is
   crucial because threats to information systems infrastructure have become more frequent
   and more sophisticated. Safeguards and security is vital to ensuring the Nation's nuclear
   weapons are safe and secure through effective implementation of protective controls.
   Practices related to the cost and scheduling of stockpile stewardship activities are critical
   for ensuring the essential deterrence role is served.

   Follow-up Audit on the Resolution of Significant Finding Investigation Recommendations
   (DOE/IG-0804, November 2008). In response to the prior audit, Resolution of
   Significant Finding Investigation Recommendations (DOE/IG-0575, November 2002),
   NNSA agreed to implement a Significant Finding Investigation (SFI) corrective action
   tracking database and establish performance measures to resolve corrective actions by
   December 2003. This audit revealed that NNSA had not effectively monitored contractor
   efforts to develop and implement a database necessary to track the status of SFI
   corrective actions because it was a low priority due to declining budgets. NNSA officials
   acknowledged that an SFI corrective action database should have been completed and
   functional. Failure to routinely track and resolve numerous SFI recommendations has the
   potential to undermine the credibility of the Department's analytically-based Stockpile


________________________________________________________________
Page 17                                               Related Reports
Appendix 2 (continued)

   Surveillance Program testing regime. Several years later and in response to this follow-
   up audit, NNSA initiated action to develop a tracking system for all SFI
   recommendations through the development of Product Realization Integrated Digital
   Enterprise.

   Development and Implementation of the Department's Enterprise Architecture (DOE/IG-
   0686, April 2005). The Department had not fully defined its current or future
   information technology (IT) requirements, essential elements if an architecture is to be an
   effective tool in managing IT investments. Additionally, the Department did not ensure
   that program office architectures were complete, were compatible with, and supported the
   overall architecture design. These issues occurred because the Department had not
   defined the roles, responsibilities, and authorities necessary to develop and implement a
   Department-wide architecture. Further, the Department did not have a formal program
   plan that established the scope, schedule, and cost of the development effort; nor had it
   established performance goals to measure progress toward the development of an
   architecture.

Government Accountability Office Report

   Department of Energy: Contract and Project Management Concerns at the National
   Nuclear Security Administration and Office of Environmental Management (GAO-09-
   406T, March 2009). Since 2006, the Government Accountability Office (GAO) has
   issued about a dozen reports examining the Department's contract administration and
   project management documenting cost increases and schedule delays that have occurred.
   For most of these projects, this resulted from inconsistent application of project
   management tools and techniques on the part of both the Department and its contractors.
   Specifically, NNSA and Environmental Management did not consistently follow
   requirements for project management and oversight, and continued to struggle to meet
   cost and schedule goals on major projects. Due to the Department's history of inadequate
   oversight and management of contractors, GAO continues to include contract and project
   management on its list of government programs at high risk for fraud, waste, abuse, and
   mismanagement. GAO recommended the Department ensure that project management
   requirements are consistently followed, to improve oversight of contractors, and to
   strengthen accountability. With missions often involving complex one-of-a-kind efforts,
   consistent and rigorous contract and project management remains vital over the coming
   decades as NNSA embarks on a major initiative to modernize the nation's aging nuclear
   weapons production facilities costing tens of billions of dollars.




________________________________________________________________
Page 18                                               Related Reports
Appendix 3




________________________________________________________________
Page 19                                         Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 22                                         Management Comments
                                                             IG Report No. DOE/IG-0836

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
